<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         FRIDAY, MARCH 2, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Allard.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN AYERS, ACTING ARCHITECT OF THE 
            CAPITOL


             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU


    Senator Landrieu. Good morning. Thank you all for attending 
this morning's hearing. I'm pleased to be chairing my first 
Legislative Branch Subcommittee meeting and happy to have the 
good support of the staff behind me to prepare for the meeting 
and to, hopefully, get us off on the right foot.
    I look forward to working with Senator Allard, who will be 
here in just a minute. As you all know, we had two votes this 
morning, which is why the meeting had to be delayed.
    We meet today to take testimony on the fiscal year 2008 
budget request for the Architect of the Capitol (AOC). I want 
to welcome Stephen Ayers, Acting Architect of the Capitol.
    Mr. Ayers. Good morning.
    Senator Landrieu. Thank you for the great tour that you 
provided for me, my staff and members of my family last week at 
the new visitor center, which is still under construction. As 
we all know, there are many decisions still pending on this 
project but it is really a magnificent space.


                      CAPITOL VISITOR CENTER TOUR


    I appreciate your commitment to this organization and wish 
you good luck in this endeavor, as the members of the selection 
commission search for a candidate to serve as the next 
Architect of the Capitol.
    I want to start again by also thanking Tom Fontana and 
Shalley Kim of your staff for joining us on that tour. It was 
my first time down to the visitor center and I must say, I was 
more than impressed. I had heard a lot of wonderful things 
about the project and some critical things, of course, but I 
for one was not prepared for the grandeur and magnificence of 
the center. I think it will be an excellent addition to this 
historical Capitol Building, a symbol of democracy and an 
expression of the importance that we put on the work of the 
people, which is what this Capitol is about, not just for those 
of us that work here every day, but this Capitol expresses both 
in its architecture and in the work that goes on in this 
Capitol and its surrounding buildings, the great aspirations of 
the greatest democracy in the world.
    I'm looking forward to sharing this building with my other 
colleagues. I have no doubt that once this facility opens, it 
will be a tremendous source of pride to all who visit here and 
will increase the numbers of people who visit here and more 
importantly than the numbers, the quality of the visits of the 
people, both adults and children, who tromp through this 
Capitol regularly in all 12 months.


                  BUDGET INCREASES AND PROJECT DELAYS


    The Architect's budget request is $482 million, an increase 
of $82 million or 20 percent. There are a number of rather 
large items in your request, such as an additional $20 million 
for the visitor center, $25 million for repairs of the utility 
tunnels, and $87 million for various repairs to the Senate 
Office Building.
    When you testified last month, you announced that the 
schedule had slipped again so I hope you will let this 
subcommittee know how this might affect, either positively or 
negatively, your budget submission.
    Finally, before you begin your statement, I want to thank 
your entire staff for their hard work in maintaining the 
Capitol complex on a daily basis. It's a job larger than most 
people understand and I particularly want to thank Marvin 
Simpson of your staff for the assistance he has provided to me 
over many years since I came to Capitol Hill. He and the others 
on your staff are true professionals and I really appreciate 
their help.
    When Senator Allard gets here, I will ask him for his 
opening statement but why don't you go ahead and proceed, 
Stephen.


                   OPENING STATEMENT OF STEPHEN AYERS


    Mr. Ayers. Thank you, Madame Chairman and thank you for 
this opportunity to testify today regarding our fiscal year 
2008 budget request.
    Since 1793, the AOC has been responsible for construction, 
maintenance, and preservation of the Capitol Building and the 
growing and evolving Capitol complex. The AOC has evolved as 
well. We have become more strategic in our thinking, more 
transparent in our processes, and more accountable to our 
clients.


                         PERFORMANCE MANAGEMENT


    As you know, I recently assumed the duties of Acting 
Architect of the Capitol following the retirement of Alan 
Hantman. I've been working closely with the AOC team to ensure 
a smooth transition over the past few months. We have a new 
senior leadership team in place, made up of experienced, 
senior-level managers. We also have a number of new tools at 
our disposal to help set goals, manage projects, and plan for 
the long-term needs of the Capitol complex.
    Our most important tool is our strategic plan. In January, 
we launched our strategic plan for fiscal years 2007 through 
2011, a performance-based plan, which will help us continually 
enhance the effectiveness in carrying out our mission.
    As a result of these tools, we've had a number of successes 
in recent years. For example, we recently closed out 67 percent 
of the Government Accountability Office's (GAO) general 
management recommendations. We've improved our cost accounting 
procedures and internal controls and we received our third 
annual clean financial audit opinion from an independent 
auditing firm.
    Last year, we reduced energy consumption by nearly 6 
percent over the 2003 baseline, representing a 3.8-percent 
increase over our goal. Most importantly, we've improved our 
delivery of services to our clients, as demonstrated by our 
annual building services customer satisfaction survey. Since 
our 2002 baseline survey was conducted, we've steadily received 
high marks from our clients in areas such as maintenance, 
services provided by our AOC shops, and overall responsiveness.


                    ANNUAL OPERATING BUDGET REQUEST


    Madam Chairman, we've developed this budget through a 
deliberate planning process. We've reviewed many operating and 
capital project requests and made some difficult choices in our 
effort to be good stewards of the Capitol complex and to 
practice fiscal responsibility.
    Our 2008 annual operating budget request for $341 million 
is in support of our ongoing efforts to be more strategic and 
accountable, as well as other necessary support programs 
including implementation of an emergency preparedness program, 
purchasing utilities, procuring, operating and maintaining 
relevant information technology systems to support them, 
continuing to provide advanced training opportunities for our 
employees, and anticipating the operating costs of the Capitol 
Visitor Center (CVC).
    The second component of our budget for fiscal year 2008 is 
$131 million for capital projects. Chief among our 
responsibilities is maintaining, preserving, and upgrading the 
national treasures entrusted to our care. These include the 
facilities, grounds, artwork, and other assets, determining 
which work is done first and where our limited resources are 
best used involves a deliberate and multiyear planning 
approach.
    A vital tool we rely on during this process is our facility 
condition assessments. They help us prioritize our projects 
based on an objective set of criteria that allow us to evaluate 
the relative merits of each of these projects. Once a condition 
assessment is complete, this information is rolled into a 5-
year capital improvement plan. This plan is used to evaluate 
projects based on a set of pre-established criteria, including 
fire and life safety, code compliance, historic preservation, 
economics, life cycle cost considerations, physical security, 
and energy efficiency.
    These projects are further evaluated based on the condition 
of the facilities and their components and the urgency in 
correcting the identified deficiencies.


                      CAPITOL COMPLEX MASTER PLAN


    Looking further down the road, we're also developing a 
Capitol complex master plan, which requires executing necessary 
deferred maintenance and renewal work to keep existing 
facilities functioning while planning for major building 
renewals in the future. The master plan and individual 
jurisdiction plans seek to address these growing problems 
through a flexible investment strategy incorporating re-
investment and new construction.
    Key capital projects in our 2008 request include utility 
tunnel repairs, a Dirksen infrastructure project, and smoke 
detector upgrades in the John Adams Building. In addition to 
these new capital projects, we are committed to completing some 
long-term projects, specifically the Capitol Visitor Center and 
the utility tunnel repairs.
    Madam Chairman, we appreciate the interest you've taken in 
the CVC project and we appreciate your participation on the 
tour we conducted last week. Our 2008 request includes $20 
million for the CVC to cover potential sequence 2 to delay 
costs, CVC administration costs, construction management fees, 
and potential change order funding. The latest billing 
statements show that we are now 91 percent complete and major 
construction activities will begin to wind down in the next few 
months. The tasks left to do largely involve aesthetics and 
functionality of the space.


                          SCHEDULE ADJUSTMENTS


    Although we are continuing to make progress, the contractor 
continues to miss milestones developed by the contractor to 
prioritize the work needing to be done. The fact that a 
significant number of milestones were missed, in my mind, 
indicates that the overall schedule is not realistic, given the 
risks and uncertainties associated with the integration of fire 
and security systems and the building systems in general. The 
project team has been working aggressively to mitigate risks 
but it would be prudent to factor these risks and contingencies 
into the schedule.
    Specifically, these risks include commissioning of building 
systems and the overall acceptance and testing of the fire and 
life safety systems. After carefully evaluating past contractor 
performance schedules and the nature of the issues that remain, 
I have directed the project team to evaluate these potential 
risks into the current schedule to determine an adjusted 
completion date, since these risks are not in the current 
schedule.
    When we finish that assessment, we will notify the 
subcommittee as to our conclusions and recommendations. At this 
time, due to these outstanding factors, in my opinion, a 
certificate of occupancy for the Capitol Visitor Center will 
likely occur in the spring of 2008.


                   CAPITOL VISITOR CENTER OPERATIONS


    Madam Chairman, at this time, I would like to briefly 
update you and the subcommittee on the CVC construction 
progress made over the last few months. Finishes are now being 
put in place in both the visitor center and House and Senate 
expansion spaces. In the great hall, all of the floor and wall 
stone is complete. Masons are finishing their last remaining 
stonework on the water features at the base of the two grand 
staircases. In the two orientation theatres, carpet and chair 
installation is complete. Workers are now completing the 
detailing on the millwork and fabric wall panels.


                            EXHIBITION HALL


    Work continues in the exhibition hall as workers continue 
to install glass floor panels around the wall of aspirations. 
All four escalator units have been set in place in the east 
front transition zone. With the escalators now in place, masons 
have resumed floor stone installation in the upper level lobby.


                        EAST FRONT ROTUNDA LEVEL


    At the Rotunda level of the east front, in the past week, 
the contractor has tasked five crews with setting sandstone 
blocks to the interior walls. These teams are now setting 80 
stones per day, exceeding our daily goal of 70 stones per day 
on the east front.
    Outside, all of the stone is complete along the curving 
walls, along the main entrance ramps and the foundations for 
light poles are now being installed. As the weather gets 
warmer, landscaping activities will begin in earnest, to 
include the planting of 53 new trees.


                 CAPITOL VISITOR CENTER MANAGEMENT TEAM


    In conclusion, Madam Chairman, the AOC has a rich history 
since the cornerstone of the Capitol was laid in 1793. We have 
become more strategic, transparent, and accountable. We've 
developed our 2008 budget request through a deliberate planning 
process. We've reviewed our priority list and made some 
difficult choices to be good stewards. We've accomplished much 
and experienced numerous successes in the last year, and these 
achievements are directly attributed to the dedicated, 
professional individuals that make up the AOC team.


                           PREPARED STATEMENT


    In my role as Acting Architect, I'm honored and privileged 
to work along side them. Because of their efforts and 
commitment to excellence, we will continue to provide 
exceptional service to the Congress and the visiting public. We 
greatly appreciate the subcommittee's support and will 
continually work to achieve our goals to transform the agency 
to be more strategic and accountable.
    That concludes my statement. I'm happy to answer any 
questions you may have.
    [The statement follows:]

                 Prepared Statement of Stephen T. Ayers

    Madam Chairman, Senator Allard, and members of the subcommittee, 
thank you for this opportunity to testify today regarding the fiscal 
year 2008 budget request for the Office of the Architect of the Capitol 
(AOC).
    Since 1793, the Office of the Architect of the Capitol has been 
responsible for the construction, maintenance, and preservation of the 
Capitol Building and the growing and evolving Capitol complex. The AOC 
has grown and evolved as well, particularly over the past several 
years. We have become more strategic in our thinking, more transparent 
in our processes, and more accountable to our clients.
    As you know, I recently assumed the duties of Acting Architect of 
the Capitol following the retirement of Alan Hantman on February 4. I 
have been working closely with Mr. Hantman and the rest of the AOC team 
to ensure a smooth transition over the past few months.
    In addition to my taking on the role of Acting Architect, we have a 
new senior leadership team in place made up of experienced, senior-
level managers with diverse skill sets, including the Chief 
Administrative Officer; Chief Financial Officer; Director of 
Congressional and External Relations; the Director of Planning and 
Project Management; and several others. They have brought new ideas and 
practices to the table and are committed to the continued 
transformation of the agency. In addition to these new ideas, we have a 
number of new tools at our disposal to use to help set goals, manage 
projects, and plan for the long-term needs of the Capitol complex and 
our clients.
    Our first and most important tool is our Strategic and Performance 
Plan. In 2003, we implemented our first Strategic Plan to become more 
strategic, transparent, and accountable. It was the blueprint we used 
in our efforts to deliver exceptional services to Congress and the 
visiting public. Throughout 2006, as one of my responsibilities as 
chief operating officer, our team worked to revise our Strategic Plan 
to reflect our priorities and goals for the next 5 years. In January, 
we launched our second, updated Strategic Plan for fiscal years 2007-
2011--a performance-based plan--which will help us to continually 
enhance our effectiveness in carrying out our mission. By setting 
goals, objectives, and measurable milestones we can better focus our 
efforts, set priorities, allocate resources, and facilitate 
decisionmaking throughout our organization.
    As a result of these new tools and processes, we have achieved a 
number of successes over the past year. For example, we recently closed 
out 67 percent of the Government Accountability Office's general 
management recommendations and we are on our way to closing out others 
over the next few months. We have improved our cost accounting 
procedures and internal controls and have seen our efforts pay off when 
we recently received our third-consecutive clean financial audit 
opinion from independent auditors. Last winter, we increased our 
efforts to improve energy efficiency Capitol Hill-wide. Following the 
passage of the Energy Policy Act of 2005, and thanks to the continued 
cooperation of congressional offices and hard work of AOC staff, last 
year we reduced energy consumption by nearly 6 percent over the 2003 
baseline, exceeding the fiscal year 2006 goal by 3.8 percent.
    Internally, we have been working to foster a results-oriented 
workplace and encourage communication and teamwork throughout the 
agency. This involves holding regular staff or shop meetings, 
conducting annual town hall meetings with all AOC employees to 
encourage open dialogues and feedback, and providing a variety of 
training opportunities. These efforts have also borne fruit, for 
example, our injury and illness rate decreased for the sixth year in a 
row. We dropped to 4.88 cases per 100 employees in fiscal year 2006 
from a high of 17.9 in fiscal year 2000.
    To establish greater accountability throughout the organization, we 
created a ``dashboard'' that summarizes AOC's performance. It contains 
a series of tactical or operational indicators that are tracked on a 
monthly basis and are for use by the chief operating officer and 
architect as well as superintendents and division heads to monitor the 
AOC's performance in several key areas. The dashboard also includes 
performance measures for each strategic goal area.
    In addition, 2 years ago we re-organized and established the 
Planning and Project Management Division to align project management 
staff and resources with our mission-critical goals and to consolidate 
project and construction management functions. This created a single 
point of responsibility for every project and provides ``cradle-to-
grave'' oversight. We implemented new processes designed to improve 
project tracking and reporting, including developing written procedures 
and manuals to follow throughout every step of the design, engineering, 
and construction stages of a project. We have modeled our work on 
industry's best practices and have joined a variety of professional 
organizations to keep up to date on the latest information and 
practices. Today, our design and construction teams interact daily by 
holding a variety of briefings and meetings to share experiences and 
increase communication to ensure that projects are done well, are done 
on time, and done within budget.
    Most importantly, we have improved our delivery of services to our 
clients as demonstrated by our annual Building Services Customer 
Satisfaction surveys. Since our baseline survey was conducted in 2002, 
we have steadily received high marks from our clients on areas such as 
maintenance, services provided by AOC shops, and overall responsiveness 
to their needs.
    We have developed this budget through a deliberate planning 
process. We reviewed many operating and capital project requests and 
made some difficult choices in our efforts to be good stewards of the 
Capitol complex and practice fiscal responsibility.
    The AOC's total budget request for fiscal year 2008 is $481.7 
million ($431 million without items specific to the House). A good 
portion of the fiscal year 2008 increase is the result of using fiscal 
year 2006 levels as the baseline in this budget request. For example, 2 
years worth of pay raises for our employees are included, as well as 2 
years of inflation on the other goods and services we procure. In 
addition, most of the increase in utilities is the result of using the 
fiscal year 2006 appropriation value for the Capitol Power Plant, 
before the impact of the 2006 reprogramming and the adjustment made by 
the House and Senate appropriators in our fiscal year 2007 continuing 
resolution levels.
Annual Operating Budget Request
    Our fiscal year 2008 annual operating budget request for $341.6 
million is to support our on-going efforts to be a strategic and 
accountable organization as well as support other necessary programs 
including the implementation of a new emergency preparedness program; 
purchasing utilities; procuring, operating, and maintaining relevant 
information technologies and the systems to support them; continuing to 
provide advanced training opportunities for employees, and anticipating 
operating costs of the Capitol Visitor Center (CVC) until the 
governance issue is determined.
    Specifically, the annual operating request would provide funding 
for minimal operational start-up costs, exhibits, gift shops, 
telecommunications, and information technology infrastructure support. 
It also covers the increased payroll costs resulting from the opening 
of the CVC and the need to hire additional full-time staff to support 
operations and maintenance functions.
    This request also would provide funding for the purchasing of 
supplies required for installation, conservation, and maintenance of 
the exhibits, rotation and preparation of documents, and conservation 
and artifact insurance required for those exhibits on loan to the CVC.
    We are also looking to increase our investment in information 
technology (IT) in fiscal year 2008 to re-establish base resources that 
have been reallocated to cover other budget shortfalls in past years. 
With today's ever-changing technologies, we are looking to protect our 
IT systems by installing the latest technology security programs, 
prepare for future technological needs, and install automated systems 
to include the Financial Management System, Human Resources Management 
System, and Computer-Aided Facility Management System.
Capital Project Budget Request
    The second component of our fiscal year 2008 budget request is 
$131.1 million for capital projects. Chief among our responsibilities 
is maintaining, preserving, and upgrading the national treasures 
entrusted to our care by Congress. This includes the facilities, 
grounds, art work, and other assets. Determining which work is done 
first and where our limited resources are best used involves a 
deliberate approach and multi-year project planning.
    A vital tool that we rely on during this process is our Facility 
Condition Assessments (FCAs). An independent contractor, using common 
industry standards, has been conducting FCAs throughout the Capitol 
complex since 2004. The FCAs help us to prioritize our projects based 
on a set of objective criteria that allow us to evaluate the relative 
merits of each of these projects. FCAs provide us with a method for 
measuring the current condition of all facilities in a uniform way to 
assess how much work is necessary to maintain or upgrade their 
conditions to acceptable levels to support organizational missions and 
help to determine when this work should occur.
    It is important to try to meet the infrastructure needs for these 
facilities within appropriate timeframes in order to prevent their 
conditions from deteriorating further, resulting in the costs to 
correct these deficiencies to rise. Therefore, it is key to look at a 
multi-year, fiscally-responsible, holistic plan to attend to these 
issues. Once an FCA is completed on all the facilities, this 
information is rolled into a 5-year Capital Improvement Plan (CIP). The 
CIP is used to evaluate projects based on a set of pre-established 
criteria. These criteria include whether the work addresses fire and 
life-safety issues; code compliance; preservation of historic or legacy 
elements; economics and life cycle cost considerations, physical 
security and other considerations, such as environmental and energy 
efficiency. The projects are further evaluated based on the conditions 
of the facilities and their components, and the urgency in correcting 
the deficiencies.
    Looking even farther down the road, we are also developing the 
Capitol Complex Master Plan (CCMP) which requires executing necessary 
deferred maintenance and renewal work to keep existing facilities 
functioning while planning for major renewal projects. The CCMP and 
individual Jurisdiction Plans seek to address these growing problems 
through a flexible investment strategy incorporating reinvestment and 
new construction. Each Jurisdiction Plan is being evaluated to ensure 
sequencing of short- and long-term priority work is properly expedited 
and aligned to ensure successful execution and avoid duplication of 
efforts. Ultimately, the CCMP will establish a framework that will help 
the AOC to prioritize the maintenance, renovation, and construction of 
facilities over the next 5, 10, and 20 years while allowing for prudent 
budgeting of the costs for necessary upkeep and construction.
    Using the CIP process, we are able to comparatively vet the 
projects to ensure that the most urgent get addressed most quickly. 
Setting these priorities and setting limits resulted in some projects 
not rising to the top of the list based on the objective criteria used 
as part of the CIP process. It is not that these projects are not 
important. They are all needed and are mission critical, but the 
fiscally responsible thing to do is address the urgent needs first. 
This multi-step methodology was used to produce the project priority 
list included in our fiscal year 2008 budget request submitted for the 
subcommittee's consideration.
    As in previous budgets, our focus is on ensuring that fire and 
life-safety deficiencies are corrected and that significant resources 
are devoted to protecting the people who work and visit the Capitol 
complex. Safety is one of the AOC's top priorities.
    Key capital projects included in the AOC's fiscal year 2008 budget 
request are:
  --utility tunnel repairs and improvements ($24.8 million). The multi-
        year project addresses safety issues in the utility tunnels and 
        improves conditions relating to egress, ventilation, 
        communications, and asbestos.
  --Infrastructure improvements in the Dirksen Senate Office Building 
        ($8 million). Second phase of a three-phase project to replace 
        aged and deteriorated air handling units to maintain 
        ventilation and occupant comfort.
  --Emergency lighting upgrades ($4.4 million). Correct emergency 
        lighting deficiencies in the Rayburn House Office Building by 
        modernizing existing systems.
  --Smoke detector upgrades ($6.5 million). Upgrade the LOC's John 
        Adams Building to current code requirements for smoke detection 
        systems.
    In addition to these new capital projects, we are committed to 
completing some long-term projects, specifically the Capitol Visitor 
Center (CVC) and repairing the utility tunnels.
Capitol Visitor Center Budget Request and Project Update
    Our fiscal year 2008 budget request for the CVC includes $20 
million to cover potential Sequence 2 delay costs, CVC administration 
costs, construction management fees, and potential additional change 
orders.
    The latest billing statements and schedule show that the project is 
91 percent complete. Major construction activities will begin to wind 
down over the next few months. The tasks now left to do largely involve 
the aesthetics and functionality of the space such as painting and 
installation of carpet, lighting fixtures, hand railings, decorative 
woodwork, as well as the tie-in of building systems.
    Although we are continuing to make progress, the contractor 
continues to miss scheduled activities or ``milestones''--interim 
target dates from the schedule developed by the contractor to 
prioritize work needing to be done to complete the project. The fact 
that a significant number of milestones were missed, in my mind, serves 
as an indicator that the overall schedule is not realistic given the 
risks and uncertainty associated with the integration of the fire and 
security systems and the building systems. The project team has been 
working aggressively to mitigate several risks, but it would be prudent 
to factor these risks and contingencies into the schedule. 
Specifically, they are (1) commissioning of building systems, and (2) 
acceptance testing of fire, security, and life-safety systems to 
include testing to ensure the building systems and fire and life-safety 
systems are integrated and work together properly.
    After carefully evaluating past contractor performance, schedules, 
and the nature of issues that remain, I directed the project team to 
evaluate the potential risks to the current schedule to determine an 
adjusted completion date since the two risks I discussed were not built 
into the current schedule or into the fire and life-safety acceptance 
testing plan. When we finish this assessment, we will notify the 
subcommittee as to our conclusions and our recommendations. At this 
time, due to the outstanding factors we are dealing with, in my opinion 
the certificate of occupancy will likely occur in spring 2008.
    Madam Chairman, at this time, I would like to briefly update the 
subcommittee on the construction progress that we have made over the 
past few months on the CVC.
    Work is ongoing to put the finishes in place in both the Visitor 
Center and House and Senate expansion spaces. In the Great Hall, all of 
the floor and wall stone is complete. Masons are finishing the last 
remaining stonework in the water fountains at the base of the 
staircases.
    In the two orientation theaters, carpet and chair installation is 
complete. Workers are completing the detailing on the millwork and 
fabric wall panels. Many of the wall lighting and speaker elements have 
been installed and crews are now putting in the bronze railings. Work 
continues in the Exhibition Hall as workers continue to install glass 
floor panels around the Wall of Aspirations.
    In the East Front transition zone, all four escalator units have 
been set into place alongside the central stair connecting the CVC to 
the Capitol. The escalators had occupied floor space in the upper level 
lobby between the two orientation theaters. With this space now clear, 
masons have resumed floor stone installation at this location and will 
soon complete this last remaining major block of floor space in the 
CVC.
    At the Rotunda level of the East Front, in the past week, the 
contractor has tasked five crews with setting the sandstone blocks to 
the interior walls. The teams are setting approximately 80 stones per 
day, exceeding the daily goal of setting 70 stones in the East Front.
    Outside, almost all of the stone is complete along the curving 
walls along the main entrance ramps and the foundations for light poles 
are being installed. As the weather gets warmer, landscaping activities 
will begin in earnest, including the planting of 53 new trees.
    Madam Chairman, the Office of the Architect has had a rich history 
since the cornerstone of the Capitol was laid in 1793. Over the years, 
the AOC has grown and evolved much like the complex which we maintain 
and preserve. As I noted previously, we have become more strategic in 
our thinking, more transparent in our processes, and more accountable 
to our clients.
    We have developed our fiscal year 2008 budget request through a 
deliberate planning process. We reviewed our priority list and made 
some difficult choices in our efforts to be good stewards of the 
Capitol complex and practice fiscal responsibility. Using tools we 
developed based on industry's best practices, we have determined which 
projects are done first and where our resources are best used.
    As I discussed earlier, as a result of putting plans into place, 
creating new and innovative tools and processes, and setting 
priorities, we have accomplished much and experienced numerous 
successes. These achievements can be directly attributed to the 
dedicated, professional individuals that make up the AOC team. In my 
role as Acting Architect, I am honored and privileged to work along 
side them. Because of their efforts and commitment to excellence, we 
continue to provide exceptional service to Congress and the visiting 
public.
    We greatly appreciate this subcommittee's support as we continually 
work to achieve our goals and transform our Agency into a results-
oriented workplace. Madam Chairman, once again, thank you for this 
opportunity to testify today. I'd be happy to answer any questions you 
might have.

                           ADDITIONAL FUNDING

    Senator Landrieu. Thank you for that excellent although 
brief statement. Can you be as specific as possible about any 
additional funding that your office may need in 2007 or 2008, 
based on the completion estimates of the visitor center? Have 
you submitted that in your testimony this morning any 
additional funding that might be necessary?
    Mr. Ayers. We don't believe that additional funding is 
necessary in 2007. I think the continuing resolution, the way 
it was structured, gave us the necessary flexibility to carry 
us through 2007. In addition, we've requested $20 million in 
our 2008 request. We believe that's sufficient to carry us 
through 2008.

                   CAPITOL VISITOR CENTER GOVERNANCE

    Senator Landrieu. Thank you. I understand that Bob Hixon, 
the Project Executive, is planning to retire at the end of the 
month. Do you have plans to provide comparable leadership at 
this critical stage or could you talk for a moment about that?
    Mr. Ayers. Yes, ma'am. Mr. Hixon is retiring. We do 
continue to twist his arm but he is holding steady at the 
moment. We developed a transition plan several months ago and 
we'll be moving Doug Jacobs, our current Project Design 
Manager, into the Project Executive role. Doug has been on the 
project for nearly 7 years and is well respected throughout the 
Congress and is well versed in the in's and out's of the 
project. We're comfortable and confident that his leadership 
skills will bring it to conclusion.

                      FIRE ALARMS AND HVAC SYSTEMS

    Senator Landrieu. I understand that GAO has expressed 
concerns about the fire alarms and heating, ventilation and 
air-conditioning systems and I understand there will be several 
months of actually testing these systems, which is contributing 
to the extension of the opening. And you mentioned it briefly 
in your opening statement but could you add a few thoughts 
about where we are in terms of the progress we are making on 
this particular aspect of the building?
    Mr. Ayers. Yes, ma'am. We believe most of the delay for the 
fire alarm systems are behind us now, with essentially all of 
our submittals for the fire alarm system approved or in the 
approval process. So work is ongoing on the installation of the 
fire alarm system in earnest. It has contributed to significant 
delay thus far. There is risk that remains as, once it's 
installed, we have to pretest it and then go through an 
extensive acceptance testing process to ensure it works as it 
is designed. There is risk remaining in that and we're working 
now to accommodate that risk in the construction schedule.

                   FIRE ALARMS SYSTEM DIFFERENTIATION

    Senator Landrieu. For the lay people among us, can you 
explain the difference between the fire alarm system in the 
visitor center and the current fire alarm system in the Capitol 
Building itself? Are we trying to have the same system or is 
this one far superior to what is in the current building?
    Mr. Ayers. This system is far more superior and more 
sophisticated than the current system in the Capitol Building, 
absolutely, because the CVC is a below-ground, assembly 
facility. It involves a significant matrix that includes the 
control of doors and operating equipment and various other 
security features are all tied into the fire alarm system that 
makes it a little more unique than the system we currently have 
in the Capitol Building.
    Senator Landrieu. And there will be ways, as we're testing 
this, to make sure that at the end, it will actually work? So 
you can see, stage by stage, if something needs to be fixed? 
Because I've seen these design systems in other aspects of our 
Government and the theory of the design is terrific but when 
you get down to actually making it work, you end up producing 
something that actually fails to work appropriately. We would 
not want that to happen in this center.
    Mr. Ayers. Yes, ma'am, you're absolutely right. The 
critical phase of that is the final acceptance testing of all 
of these fire alarm systems. That is where it is put through 
its paces and all of these individual systems are tested 
together in that final stage, to be sure that it does work. We 
expect that process to take at least 6 months, so it's a very 
extensive testing program to validate that it works as 
designed.

                       LIBRARY OF CONGRESS TUNNEL

    Senator Landrieu. Okay. So while we're anxious to get 
things done, we don't want to short circuit this testing 
period, which I think is important for the complexity of the 
system. The Library of Congress--the status of the work on the 
Library of Congress tunnel and the associated connection of the 
Jefferson Building--have delays been encountered? If so, why 
and what steps have been taken to ensure the cost of all the 
work will not exceed the statutory $10 million limit?
    Mr. Ayers. We're comfortable with that at the moment. We 
believe we'll be $200,000 or $300,000 below that requirement. I 
think the work is now 65 or 68 percent complete, so the 
unforeseen site conditions are out of the way. We have a clear 
understanding of the work that remains and that work is behind 
schedule by a number of months. We do believe it will be 
finished in the May or early June timeframe. We're watching 
that very closely. You may have heard us talk about our action 
plan. The work that is going on in the tunnel as well as the 
space in the Jefferson Building are all part of the action 
plan. We look at that schedule very carefully in a separate 
schedule meeting on that particular piece of the work alone so 
we understand that there is some risk there, but we're steadily 
focused on it and we're comfortable that we'll be able to 
complete it under the $10 million cap.

                          VISITOR TRAFFIC FLOW

    Senator Landrieu. Well, one of the exciting things about 
the expansion, when I made the tour, was thinking about the 
improvement in the quality of the tour for our visitors and our 
citizens. To be able to move freely between the Capitol and the 
Library of Congress, which I think is one of the most beautiful 
buildings in the whole complex and actually under visited 
because there is no system for visitors to access it easily. So 
I'm very excited about this. And, I think the way that you 
indicated how people will flow from one part of the Capitol, 
through the visitor center, and to the Library of Congress, I 
think it will help encourage visitors to the Library of 
Congress. Not that it does not have a very high profile among 
visitors generally, but this will really raise its profile, 
because it's truly an extraordinary building on its own.

                      FORT MEADE LOGISTICS CENTER

    The Library of Congress is requesting $44 million in the 
2008 budget for a logistics center at Fort Meade. I understand 
that that is not included in your priority of requests at this 
time. Could you comment about that? In your view, it is a high, 
medium, or low priority and what are your views about the needs 
for additional storage?
    Mr. Ayers. I am very familiar with that project, as I was 
previously the superintendent for the Library buildings and 
grounds, so I was intimately involved in its development. There 
is no question it is an important project, one that the Library 
of Congress thinks is an immediate need. From our perspective, 
when it shook out in the overall priorities, throughout the 
Capitol complex, it did not make what we thought was a 
reasonable budget request.

                  CAPITOL POLICE CONSTRUCTION REQUEST

    Senator Landrieu. I'm looking forward to hearing a bit more 
from the Capitol Police about this and I understand that you 
have to prioritize and make those decisions. Do you support the 
Capitol Police request for construction that is included in 
this budget? Could you comment about the Capitol Police 
construction request?
    Mr. Ayers. Yes, ma'am. We have a couple of initiatives on 
the capital side for the Capitol Police. One is the vehicle 
barriers on Independence Avenue. They have expressed that 
that's an important matter and we do have that in our budget. 
In addition, we have our standard Capitol buildings and grounds 
request, including a minor construction component that we 
believe will meet the needs of the Capitol Police. We do work 
and partner with them very closely in our budget development.

               CAPITOL COMPLEX MASTER PLAN REVIEW PROCESS

    Senator Landrieu. Who approves the Architect's master plan 
and could you review, from your perspective, the role of this 
subcommittee and the Senate Rules Committee, relative to your 
master planning process?
    Mr. Ayers. Yes, ma'am. We believe ultimately that the 
Capitol complex master plan should be approved by the 
leadership of the Congress. Certainly this subcommittee and the 
Rules Committee need to play an integral part in the 
development of that plan but from our perspective, the plan 
will be much more significant once it is finally approved by 
the leadership of the Congress.
    Senator Landrieu. I have been joined by Senator Allard, who 
served as chair of this committee for many years. So I would 
like to turn to him right now and I will come back to my 
questions. I'll ask Senator Allard if he has an opening 
statement and I thank you for your leadership and your guidance 
through the expansion of--one of the largest expansions of the 
Capitol in the Capitol's history, if not the largest.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, thank you, Senator Landrieu and I 
look forward to working with you over the next couple years. 
We're going to continue to have some challenges, I can see that 
already and I think you'll be a very able chairperson.
    Also, before we make an opening statement, I would like to 
recognize Bob Hixon. You know, Bob Hixon has graciously been 
showing up at my hearings for 2 years. We've kept him busy. He 
has testified many times before this subcommittee and it's my 
understanding that this could be his last Senate subcommittee 
hearing. I hear a sigh of relief when I mention that.
    I understand Bob is retiring March 31 and so I wanted to 
recognize him in a public way. He has been a driving force on 
the CVC project. As Project Executive, he has tackled many of 
the challenges in making it a reality. Bob has regularly 
juggled thousands of tasks associated with the project and he's 
done it very well and he has provided exceptional service, I 
think, to the Architect of the Capitol and to the Congress. 
He's had a long, successful Government career with the majority 
of his career spent at the General Services Administration, 
where he served for several years as Director for the Center 
for Construction Project Management. So we appreciate Bob's 
commitment to the CVC project and his leadership. He's been a 
consummate professional, in my view, through his service. So 
thank you, Bob.
    Senator Landrieu. Bob, why don't you stand up and we'll 
give you a round of applause?
    Senator Allard. Well, thank you, Madam Chairman and 
congratulations again on your chairmanship for this 
subcommittee. Some members of our committee view this as the 
least desirable post but I believe it is one of the most 
important, frankly and I think we need to take care of our 
backyard. You and I have that responsibility, ensuring that the 
legislative branch is positioned, through adequate funding, to 
fulfill its constitutional duties. I think it is very critical 
and I look forward to working with you.
    Mr. Ayers, it's good to see you here. This is your first 
hearing before this subcommittee as the Acting Architect. 
You're wearing two hats, I understand, right now and I don't 
know how you keep up with that kind of a schedule because those 
two positions are demanding.
    Last year, you came before us as the Acting Chief Operating 
Officer. You've held many positions at AOC just within the past 
several years. Superintendent of the Library buildings and 
grounds, Deputy Superintendent of the Senate office buildings, 
before becoming the Chief Operating Officer. I believe you've 
done a good job and I wish you the best as the Acting 
Architect.
    Mr. Ayers. Thank you, sir.

                     LEGISLATIVE BRANCH COMPLIANCE

    Senator Allard. Madam Chairman, one of the initiatives I 
pursued as chairman of this subcommittee was to bring the 
legislative branch into compliance with the spirit and intent 
of the Government Performance and Result Act. This act 
encourages greater effectiveness, efficiency, and 
accountability in the Federal Government. It requires agencies 
to set goals and use meaningful measures for management and 
budgeting. While the legislative branch is not statutorily 
required to do so, we require that of all other branches 
outside the legislative branch. I believe the legislative 
branch should be held to the same standards. We shouldn't have 
two sets of standards. I feel strongly about that so you can 
expect me to bring up how it is that we're managing and are we 
setting goals and objectives and are we meeting those, to be 
held accountable for our actions.
    And I will lend my support to programs that have proven to 
be effective by meeting or exceeding those performance goals.

                         OPERATIONS MANAGEMENT

    I was pleased to see in your written testimony, Mr. Ayers, 
the discussion about the importance of setting goals, 
objectives, and measurable milestones and the need to establish 
greater accountability within the agency. There is more work 
that needs to be done in this area. The AOC has made progress 
over the past several years in using performance measures and 
developing budgets based on objective criteria, particularly 
through the capital improvement plan.
    Finally, I'd like to thank the AOC and GAO for providing 
the Lessons Learned report on the Capitol Visitor Center 
construction project on time and with jointly agreed upon 
recommendations from the two agencies. I believe this was a 
very useful exercise. It should keep the Architect of the 
Capitol from repeating problems it has experienced on the 
Capitol Visitor Center project in future construction projects. 
From what I saw from the wish list that came out of the House 
side, there is going to be major construction going on around 
here for some time and I hope we can implement those lessons 
learned.
    This report points out the need for better methods for 
incentives for contractor performance, improved coordination 
and communication, maintaining a solid project schedule, and 
clarifying the role of the construction management contractor.
    Madam Chairman, this concludes my statement. What time 
would you like to wind up? I have a lot of questions. We may 
not have time to address of all them and I would submit some of 
those but I have them prioritized and I'll ask them in their 
order, depending on how much time I may have.
    Senator Landrieu. I think we have sufficient time, you may 
take 15 minutes for questions if that is good. If not, I will 
be happy to have you submit those for the record.
    Senator Allard. Very good.
    Senator Landrieu. Would you like to ask a few now? Go right 
ahead.
    Senator Allard. Let me take a few. I will, Madam Chairman, 
if you don't mind.

                            UTILITY TUNNELS

    I want to first discuss the utility tunnels. It has been 
over 1 year since the Office of Compliance filed a complaint 
for the AOC's failure to remedy safety concerns in the utility 
tunnels. Congress approved $27.6 million in emergency 
supplemental funding last year to begin to remediate these 
problems. What has been accomplished in the last year on the 
remediation of the tunnel problems? I believe some of the 
tunnels that we thought were the greatest risk perhaps aren't 
as great as a risk and some of the tunnels we thought were 
relatively safe aren't as safe as we assumed. So I think there 
has been some readjustment on priorities and I wish you would 
address that.
    Mr. Ayers. Yes, sir. Thank you. In terms of the emergency 
supplemental that the subcommittee was able to provide, we have 
now obligated nearly $25 million to make headway on the repairs 
to the utility tunnels. We have completed, as of the end of 
December, I think, December 29, the comprehensive facility 
condition assessment of all of the walkable tunnels. That's the 
document that outlines exactly what the problems are and 
exactly what needs to be completed. As the result of that, we 
were able to award much of that emergency supplemental money.

                      TUNNEL CONDITION ASSESSMENT

    There are some things that have changed since our initial 
look in April 2006. Chief among them are the condition of the 
``Y'' tunnel versus the condition of the ``R'' tunnel. Clearly, 
the condition assessment noted that the ``R'' tunnel is in 
worse structural condition than the ``Y'' tunnel. In addition, 
one of the things we learned recently in the ``R'' tunnel is 
that not only does the roof of the ``R'' tunnel need to be 
replaced, much of the walls along that tunnel also need to be 
replaced. That's something that we had not anticipated.
    Similarly, the condition assessment noted some 
deterioration in the ``G'' tunnel that we had not anticipated 
as well.
    In terms of what has been accomplished, we have abated 
asbestos in the ``B'' tunnel and in the ``V'' tunnel. We've 
found the presence of mold in the ``B'' tunnel and we have 
abated that. Currently under construction is one new egress 
point in the ``Y'' tunnel and we have recently awarded a 
contract for a second egress portion on the ``Y'' tunnel. As I 
noted, we completed the condition assessments and we're 
currently in the ``Y'' tunnel, cleaning the dust and debris out 
of that tunnel.

                           SCHEDULING DELAYS

    Senator Allard. Thank you, Mr. Ayers. I'd like to move to 
the CVC.
    I understand that you are reassessing the schedule and plan 
to get that done by early April. Is the project continuing to 
miss 2 weeks in the project schedule every month and is this a 
problem we're going to continue to see under your leadership?
    Mr. Ayers. Well, there's no question if you look back at 
the history of the project, in the last year, we've lost 2 
weeks in every month. Clearly to me, that indicates that our 
schedule is not realistic. So what we're doing now is we're 
going back and re-evaluating that schedule to ensure it is 
realistic and re-baseline that so that we don't continue to 
slip 2 weeks every month.

               GOVERNMENT ACCOUNTABILITY OFFICE TESTIMONY

    Senator Allard. Well, Madam Chairman, I've had the 
Government Accountability Office sitting here in prior 
hearings, giving us a report and how they feel about CVC 
progress. They have been our eyes and ears and I'm not saying 
that we necessarily have to have them at this particular point 
in time but it does bring to my attention our tunnel problem. I 
might suggest to you, in considering on the tunnel issue, where 
I think we're going to perhaps run into similar delay problems 
that we ran into with the CVC that we have the GAO to monitor 
the project. They act as our watchdog.
    Senator Landrieu. I most certainly will consider that 
because I know this tunnel issue has been something that has 
taken a great deal of time of Senator Allard in the past and we 
want to make sure the issues, from health issues to 
construction issues to safety issues are properly addressed. So 
I'll consider that.

                           PROJECT MANAGEMENT

    Senator Allard. Mr. Ayers, will the recent slip in schedule 
require you to amend your budget request for CVC operations 
since opening will be 6 months later than was assumed in your 
budget?
    Mr. Ayers. Yes, sir. We are doing that re-evaluation now. 
We have a team that is looking at all of the operational costs 
that we had projected, based upon a February completion date. 
We are re-evaluating those costs now to determine if there are 
impacts to that.
    Senator Allard. Now, what will you do to institutionalize 
the lessons learned from the CVC project so as to improve 
project management in future construction projects because I 
can see us using those lessons learned when we get to the 
tunnel construction.
    Mr. Ayers. Yes, sir. That's a great point and in order to 
institutionalize them, we will take them and we will hold a 
series of training seminars with all of our project managers. 
We have to communicate what those lessons were. We've already 
begun that process. In recent months, we've started an 
Architect's briefing, where we pull out one of our independent 
or one of our ongoing construction projects, and brief that to 
our senior leadership team. We've had people like Bob Hixon 
come as well and offer some advice on current projects, lessons 
learned on projects, and how this issue on the CVC has been 
handled and how we could better handle the issue on a different 
project. So that cross pollerization is already underway.
    Senator Allard. I appreciate you keeping that in the 
forefront because there definitely are lessons to be learned 
there, things that we can correct in future projects.

                        PERFORMANCE-BASED BUDGET

    Last year, we were told that the fiscal year 2008 budget 
would be the Architect of the Capitol's first performance-based 
budget. Could you tell us how the 2008 budget is different from 
previous budgets in this regard?
    Mr. Ayers. Well, our 2008 budget is not necessarily a 
performance-based budget. I think that is planned for fiscal 
year 2009. In 2008, our budget is currently based on our 
strategic plan but it doesn't ultimately get to a complete 
performance-based budget yet. We have to roll out and complete 
our cost accounting system before we are able to achieve that 
goal. We've had some slowdowns in that process over the last 
year. The continuing resolution is affecting us right now with 
our ability to retain consultants to help us with that, but we 
have developed a strategic plan. The budget does follow the 
strategic plan but ultimately, the costs that are associated 
with each of the individual elements in the strategic plan are 
not quite in our budget yet. So we anticipate that will happen 
in the 2009 budget request.
    Senator Allard. I felt all along that we've been more than 
agreeable as far as meeting your budget needs that you've 
requested and so you're saying that you need more money for 
this? Or is it the cost accounting problem that is delaying 
this?
    Mr. Ayers. No, I don't think we need more money for the 
cost accounting system. It's the fact that we have a continuing 
resolution this year that affects our ability to spend that 
money this year. So it is--I guess it is a money problem this 
year, which is slowing down the implementation of our cost 
accounting system.
    Senator Allard. All along, we've made sure you had the 
money and kept the project going. We didn't want any money tied 
up that wasn't available so I do hope that we can get the cost 
accounting lined up quickly so that we can begin to apply some 
logical approach to your budget. So I'd encourage you to get 
that put together without delay. If you can do this in the next 
budgeting cycle, that would be good. I'd be very pleased.

                          CAPITOL POWER PLANT

    Madam Chairman, let me go to one other issue that's been a 
problem we've had to deal with, again on meeting timelines and 
budget, and that's the west refrigeration plant project. Last 
year, we were told that the $100 million west refrigeration 
plant expansion would be finished by last summer. I understand 
you are now projecting completion for this summer. Why do we 
have continued delays there?
    Mr. Ayers. Yes, sir. The west refrigeration plant--it's 
really two projects in one. First is the west refrigeration 
plant that we are expecting completion in June of this year. We 
have taken beneficial occupancy of the chillers. They've been 
running for several weeks now effectively, so we're comfortable 
with the construction. We're going through the final checks and 
balances and the closeout process over the next month. It has 
been delayed through significant problems found during the 
commissioning process. Contractors have had to go back and redo 
some work and retune the systems.
    Similarly, we found significant differing site conditions 
and underground utilities. An 8-inch gas line has caused 
several months delay in that project so similarly, it's delayed 
until June.
    The second portion of that is the digital control system on 
our boilers. That project we expected, similarly, to have done 
this fall. But, an outage on one of our boilers through most of 
last year, from January through October, delayed the 
implementation of the control system on those boilers. So as 
soon as the winter months are past us, we'll begin the 
implementation of that control system on the boilers and expect 
that to be done in December.

            GOVERNMENT ACCOUNTABILITY OFFICE RECOMMENDATIONS

    Senator Allard. The GAO recommended the Architect of the 
Capitol develop a staffing plan for significantly reducing and 
then retooling the staffing at the Power Plant. What has been 
done to meet those recommendations?
    Mr. Ayers. We do have a staffing plan in place. With the 
delays that are present in the west refrigeration plant as well 
as the digital control system of the boilers, we believe it's 
important not to implement those staffing reductions until 
those automated control systems are in place and employees are 
ready to use them. Doing so now, we think would be premature. 
It's unfortunate we faced the delays and the breakdown in one 
of our major boilers but we think it would be premature to do 
it now until we have those automated controls. I think those 
staffing reductions were based on the automated controls.

                         PERFORMANCE STANDARDS

    Senator Allard. Madam Chairman, as you can tell from our 
line of questioning, we've got three major projects out here: 
the tunnels, the Capitol Visitor Center and the Power Plant 
that have been plagued with delays. I don't envy you in the 
position that you're in right now because I think you have some 
real challenges. I think this subcommittee has some real 
challenges ahead of us to oversee these, to make sure we can 
keep these delays to a minimum at the very least. So thank you, 
Madam Chairman.
    Senator Landrieu. Thank you, Senator Allard, for your 
knowledge and interest in this subject and I really appreciate 
your assistance as I get started on this subcommittee.

                    POWER PLANT OPERATIONS EXPENSES

    Let me follow up on the Capitol Power Plant for a minute. 
What is the estimate for the reduction of operating expenses 
when the new Power Plant is operational as opposed to the last 
Power Plant? Are we going to reduce the workforce, be able to 
reduce the workforce by 40 percent or 50 percent or more, in 
terms of operating staff?
    Mr. Ayers. Madam Chairman, I'll have to respond to that for 
the record. We do expect to be able to achieve some reductions 
in staff. The new chiller plant is significantly more energy 
efficient than the old plant so there will be some operating 
reductions there as well. I'll have to research those and pull 
those percentages together for you.

                     COMMUNITY GROUP RELATIONSHIPS

    Senator Landrieu. Okay, if you would. And as a resident of 
Capitol Hill myself, as some of you may know, I understand that 
there are several civic organizations on Capitol Hill, 
including Moms on the Hill, CHAMPS, which is the Capitol Hill 
Association of Merchants and Professionals, that are concerned 
about the environmental impacts of the Power Plant and also the 
aesthetics of the plant, relative to the neighbors and 
neighborhood. Can you comment about what your relationship is 
with those community groups? How do you interface with them and 
would you define that relationship as open and cordial or in 
another way?
    Mr. Ayers. Yes, ma'am. I do believe the relationship with 
the Moms group is open and cordial. We have met with them as 
recently as this December and understand their concerns and we 
are responsive to their concerns. Unfortunately, I'm not 
familiar with the CHAMPS group. I don't know if we've met with 
them or not--I'll have to research that and let you know that 
for the record.
    We've communicated to these groups that the Power Plant is 
in compliance with its title 5 permit. So we do maintain open 
relationships, we do occasionally get phone calls that we 
respond to immediately and we do think that relationship is 
open and communicative.
    Senator Landrieu. I just think it is very important. 
Sometimes I think that it's overlooked that this complex has 
major impacts on the neighborhoods surrounding the Capitol. 
While the neighbors are generally more than pleased and honored 
to live in proximity to the Capitol, we have to realize that it 
does impact these neighborhoods. We are a big player in a 
relatively small sized city. Not that Washington, DC, is by any 
means a small town, but it is less than 600,000 people and the 
Federal Government has a huge impact on the residents of the 
city. So I would urge you all to be as sensitive as you can be 
to the neighborhood groups.

                   CAPITOL IMPROVEMENT PRIORITIZATION

    Senator Allard talked about the tunnels, which is 
important. I am interested to know, Mr. Ayers, are you directed 
by any particular law that is on the books as to prioritizing 
the improvements of the Capitol or are you asked to give your 
professional judgment about the improvements at the Capitol 
that are necessary? I'm not talking about operation and 
maintenance. I'm talking about improvements. Or is it a 
combination of that or is it requests from Members of Congress 
to consider major improvements? Could you describe that for the 
record, the process of beginning to consider major improvements 
to the complex?
    Mr. Ayers. Yes, ma'am, we certainly do have a series of 
building codes and laws and regulations which with we comply. 
That certainly is part of our project planning process and our 
long-term process is to be in compliance with those laws. 
Similarly, as we've developed the Capitol complex master plan, 
it's been a deliberative process that we've gone out and 
reached out to Members and committees to get input of what the 
long-term vision of the Capitol complex is. So we do get input 
from Members and committee staff as to what the needs are.
    Senator Landrieu. And it's all wrapped up into the 5-year 
planning process or a 5-year master plan?
    Mr. Ayers. It's wrapped up into the 20-year master plan 
that we are working to budget in 5-year increments.
    Senator Allard. Madam Chairman, may I?
    Senator Landrieu. Yes, please. Go ahead.

                 CAPITOL COMPLEX MASTER PLAN FOLLOW UP

    Senator Allard. I'd just like to follow up on that question 
a little bit, if I might. I just want to point to one specific 
example. I'm not questioning your priority setting. I just want 
to understand your process, like the chairman does here. This 
has to do with the warehouse of the Library of Congress. Last 
year, your budget included funds for a new warehouse at Fort 
Meade for the Library of Congress and I noticed that this 
project did not make the cut in your budget request for 2008 
and I'd like to know why. I'm not questioning your decision. 
I'd just like to know your process on that.
    Mr. Ayers. Certainly. Last year, our project prioritization 
included importance, project importance, and we evaluated every 
project against these five pre-established criteria that noted 
project importance, including historic preservation and mission 
and economics and life safety and security elements and each 
project was given a relative score and that's how we 
prioritized the project in our budget.
    We've enhanced that process in the last year to not only 
look at project importance but we also look at project type, 
such as deferred maintenance, capital renewal, capital 
investment, and capital construction. We generally will put 
deferred maintenance and capital renewal projects toward the 
top of our list and capital construction to the bottom, as we 
want to take care of what we have before we build new. That's 
the second element.
    And the third element, project urgency, is now part of our 
evaluation process. As we go through with condition assessments 
from our independent vendor, looking at all of our buildings 
and systems, each of those is given an urgency rating. We 
determine whether it needs to be done this year, or in 5 years, 
or in 7 years. So those two layers of project type and project 
urgency had been overlaid on our budget process and 
prioritization process this year, which puts that particular 
project further down the list.
    Senator Allard. That's because that is a new construction 
project and based on that, it got moved down some and it was 
less urgent than some of the other things that you had, is that 
basically what you said?
    Mr. Ayers. That's exactly correct.

                     FORT MEADE LOGISTICS WAREHOUSE

    Senator Allard. The Librarian has gone and requested that 
the warehouse be in his own budget. Do you support that 
approach?
    Mr. Ayers. I think there may be some merit to that. In my 
judgment, the Architect is often placed in a very tenuous 
position of passing judgment on the Librarian of Congress' 
projects and the Chief of Police's projects and the Senate 
Sergeant at Arms and the Chief Administration Officer of the 
House, among others. We have tried to develop an objective 
process but certainly, we think the logistics center at Fort 
Meade for the Library of Congress is a very important project. 
I know the Librarian believes that it is absolutely critical 
and it needs to be done this year. So from my perspective, I 
think if those things were in their own individual budgets, 
there would be a more collaborative approach to those projects. 
I think those individual organizations may be more accountable 
for the projects that they submit and they can even do 
tradeoffs in their own budgets about what they may prioritize 
and what they push off to a different year in order to get a 
particular project.
    Senator Allard. Thank you, Madam Chairman.
    Senator Landrieu. Thank you. Senator Allard, I have 
completed my line of questioning. Did you have anything else 
that you would like to get onto the record before we close the 
meeting?
    Senator Allard. Madam Chairman, I have one more issue.
    Senator Landrieu. Go right ahead.

                    INFORMATION TECHNOLOGY PROJECTS

    Senator Allard. I hope it doesn't take too long. It has to 
do with information technology. Your budget includes $22 
million for information technology. Now, that's a 60-percent 
jump in resources over fiscal year 2006. It kind of catches our 
attention. This includes $3.7 million for your financial 
management system and then $1.7 million for an inventory 
control system. Can you explain the need for a large increase 
in IT projects?
    Mr. Ayers. Yes, sir. We believe that increase is absolutely 
vital to our success, vital to our ability to close out the 
remaining GAO recommendations that are from our general 
management review. Similarly, our ability to sustain and 
institutionalize our financial management practices and 
continue our clean audit opinions, we think are based on this 
financial management request we've made.
    Similarly, in the last 3 years, we've been underfunded in 
our information technology systems. It is a significant 
request. We understand that. But we think it is vitally 
important to our continued success.
    Senator Allard. As a result of not keeping up your IT, has 
there been any degradation in agency services?
    Mr. Ayers. Absolutely, sir. This year, for example, we 
planned to do our Project Information Center. It's our ability 
to track all of our ongoing projects in one comprehensive 
electronic information system. We don't have such a system now. 
It's a recommendation by GAO that we produce one. We have that 
money in our 2007 budget. We're not able to do it because of 
the continuing resolution and you'll now find that in our 2008 
budget. So similarly, in our ability to achieve project success 
and manage schedules, we think it is an important part of that 
request.
    Senator Allard. The GAO in their management review state 
that AOC made progress in improving your IT management controls 
and accountability but they say that work remains to fully 
implement an effective agencywide approach to IT management. In 
light of GAO's findings, are any of your 2008 budget requests 
for information technology projects premature?
    Mr. Ayers. No, sir, I don't think so. I think the money 
that is in our 2008 request will enable us to achieve those 
recommendations.
    Senator Allard. You haven't prioritized all your IT 
investments as the GAO recommended, have you? Or did you 
prioritize those?
    Mr. Ayers. I'd have to answer that for the record.
    Senator Allard. Would you get us a written response on 
that?
    Mr. Ayers. Yes, sir.
    [The information follows:]

                 Management Controls and Accountability

    Yes, the AOC is working with the GAO to reach a resolution 
on the IT investment management recommendations. The AOC has 
made significant progress and continues to work with the GAO to 
resolve remaining issues. The GAO recommended that the AOC 
develop and implement IT investment management processes. The 
AOC has implemented processes and assigned specific roles and 
responsibilities to senior-level review boards. The AOC has 
begun to implement portfolio-based investment decision-making 
processes, including developing criteria to select investments 
that best support AOC goals, objectives and mission. The AOC is 
continuing to work towards prioritizing all of the necessary IT 
investments.

    Senator Allard. Madam Chairman, thank you.

                           DIVERSE MANAGEMENT

    Senator Landrieu. Thank you. This has been an excellent 
hearing. I will close with a comment and a thank you on a 
lighter but important note. I understand that over one-half of 
your positions have been filled by women, your senior positions 
and I want to commend you for that. Many of our agencies within 
the legislative branch are trying to make sure that they are 
seeking diverse and professional talent in their hiring 
practices. And I hope that might be reflective of the tour that 
I took of the Capitol Visitor Center, where I was told and 
happy to hear that the lavatory space is doubled or tripled for 
the women visitors to the Capitol center. So since this is an 
issue in public buildings everywhere, let me say as a new 
chairman, I thank you for that consideration.
    Mr. Ayers. You're not the only one to be concerned about 
that.
    Senator Landrieu. That is correct because a lot of men do a 
lot of waiting as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are any additional questions, they will be 
submitted to your Office for response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu
                       operation and maintenance
    Question. Please provide a graph of the percentage of AOC funds 
spent on operation and maintenance relative to new construction over 
the last 20 years.
    Answer. The attached chart (Attachment 1) outlines funds for 
operations and maintenance relative to projects for the past 15 years 
and our fiscal year 2008 budget request. Over the last 20 years, the 
AOC's financial systems and budget process have changed several times. 
The information gathered from fiscal year 1993 to present provides the 
most concise budget numbers related to maintenance relative to new 
construction.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        west refrigeration plant
    Question. Please provide a detailed explanation for the West 
Refrigeration Plant Expansion delays, and a schedule for completing all 
elements including the Digital Control System.
    Answer. There are three major items that adversely affected the 
construction schedule of the West Refrigeration Plant Expansion 
Project; differing site conditions, contractor technical complications 
and Government delays.
    Differing Site Conditions.--The two most significant differing site 
conditions that were discovered on this project were the 8 inch high 
pressure Washington Gas main and the WASA sewer reconstruction.
  --The 8 inch high pressure gas main was not detailed on the 
        construction documents. Once the gas main, which exclusively 
        serves the U.S. Capitol Power Plant boilers, was discovered, it 
        had to be relocated so that the new WASA sewer could be 
        constructed. The relocation of the gas line took place from 
        May-September 2003, an approximate 5 month project delay. 
        Washington Gas insisted that the gas line be relocated, and it 
        had to be executed while maintaining service to the boiler 
        house, as the U.S. Capitol Power Plant could not operate the 
        boilers reliably without natural gas service.
  --The 100 year old WASA sewer as-built details did not accurately 
        depict all of the conditions. This differing site condition 
        necessitated the need to redesign the sewer tie-in points. 
        Different soil conditions in this area also caused delays.
    Contractor Technical Complications.--The contractor experienced 
delays due to the WASA sewer work. This contributed to the contractor's 
inability to complete the fire sprinkler system installation and the 
functional testing of the mechanical equipment.
  --The WASA sewer tie-in was more difficult to construct than the 
        contractor had anticipated, resulting in an execution of a by-
        pass pumping solution. The by-pass pumping solution took place 
        from March-August 2004, an approximate 6 month delay.
  --The contractor did not complete the project's life safety systems; 
        fire sprinkler, fire alarm and elevator in accordance with the 
        negotiated milestones, which resulted in concurrent delays.
  --The contractor had to repeatedly perform control function testing 
        to document reliable chilled water systems.
    Government Delays.--The delays that were caused by the Government 
were related to project redesigns, the inability to isolate old 
equipment because of faulty valves, control integration between the new 
and old refrigeration plants, and additional AOC operational 
coordination and training.
  --Fire sprinkler/fire alarm redesign issues.--In March 2006, the 
        contract scope increased to install the revised sprinkler 
        system. Several new sprinkler design criteria were added to the 
        West Refrigeration Plant Expansion Project, resulting in 
        additional pipe risers, changes to branch piping layouts, 
        reclassification of the sprinkler zones, adding side wall 
        sprinklers at the east face of the new cooling towers and 
        increasing the pipe thickness to schedule 40 pipe for sprinkler 
        piping inside the cooling towers.
  --Water chemical treatment system.--The water chemical treatment 
        system was revised to allow for compatibility with the type and 
        quantity of chemicals for the treatment of both the existing 
        West Refrigeration Plant and the new condenser water systems. 
        The objective was to reconfigure the size and type of chemical 
        storage tanks that are being provided under the West 
        Refrigeration Plant Expansion Project. As part of this 
        revision, the pump skids, controllers and associated fill 
        piping for the system were revised for safety and operational 
        reasons.
  --Control integration.--The distributed control system control logic 
        and sequence changes were revised in the contract, providing 
        controls to reconfigure and automate the existing West 
        Refrigeration Plant and tie into the new West Refrigeration 
        Plant Expansion project.
  --AOC operational coordination.--Piping connections between the new 
        and existing refrigeration plants were reconfigured to ensure a 
        reliable means of sending chilled water out to the U.S. Capitol 
        campus. The scope of work involved short outages to the 
        existing West Plant, and could only be performed during winter 
        months. During the first two initial short outages, the Capitol 
        Power Plant was unable to isolate the systems due to faulty 
        valves, causing some of the outages to be delayed until the 
        2006-2007 winter period when the valves and piping could be 
        replaced.
    Boiler Plant Distributed Controls System.--This scope of work in 
the boiler plant is part of the base contract under bid option 1, and 
was originally contracted to be completed by September 1, 2005. In 
January 2005, the distributed control system project was significantly 
changed from control logic and data collection spread throughout the 
boiler plant to two centralized data collection and processing rooms, 
also called rack rooms. The distributed control system data, via hard 
wire control points, was also redesigned in such a way that loss of 
either rack room would still enable the plant to be functional and meet 
the heating and cooling requirements of the U.S. Capitol complex.
    The complete redesign was further amended in May 2006 to match the 
existing burner management systems that remained in place. The redesign 
also integrated the existing boiler plant master control systems. 
Follow-on coordination between the Capitol Power Plant operations staff 
and the contractor to maintain operations was more difficult than 
anticipated and impacted the overall contract schedule. In addition, 
boiler repairs, boiler maintenance schedules and operational 
reliability limited the time frame that the boilers could be taken off-
line for control integration.
    Schedule.--We are currently negotiating a revised contract 
completion date with the contractor. The projected schedule for 
completing the remaining elements of the contract is depicted on the 
attached time line (Attachment 2). The new West Refrigeration Plant 
Expansion chiller systems were turned over on January 26, 2007. Between 
now and April 16th, the contractor will be working on piping and 
controls integration between the new and old refrigeration plants. The 
existing West Refrigeration Plant is currently off line while the 
contractor connects the large bore piping between the two plants. The 
remainder of the time will be used to complete other work such as: 
Transfer electric panel loads to new load centers; Commission the new 
fuel oil system; Correct deficiencies and; Close-out the West 
Refrigeration Plant Expansion Project.
    We have experienced a number of design and operation delays that 
have impacted the completion of the distributed control system for the 
new boilers. To ensure Capitol Power Plant boiler plant reliability to 
the U.S. Capitol campus we will begin the integration of the boilers to 
the new Distributed Control System in July 2007, during the summer 
months. This integration is scheduled to be completed not later than 
spring 2008.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. The meeting is recessed. Thank you.
    [Whereupon, at 11:30 a.m., Friday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
